SUPREME COURT OF THE UNITED STATES
Supreme Court Case No,

Raminder Kaur

19-1045
V.

Maryland

(Petitioner)

(Respondent)

I DONOTINTENDTO FILEA RESPONSEto the petitionfor a writ ofcertiorariunless oneis requested
by the Court.

Please check the appropriate boxes:

B Please enter my appearance as Counsel of Record for all respondents.
D There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

B I am a member of the Bar of the Supreme Court of the United States.

D I am not present] a member
will be filed by

the ar f this Court. Shoulda response be requested, the response

ar membe

Signatur
Date:

(Typeorprint)NameCame . WllllamS
D Mr.

B Ms.

Q Mrs.

Q Miss

FirmOffice of the Attorney General

Adte. 200St. Paul Place
city& stateBaltimore, Maryland
Phone
,

410-576-6422

z,p21202

^.,,
cwilliams@oag. state. md. us
Email

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'SCOUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOWTHE NAME(S) OF THE RECIPIENT(S)OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
ec:

